Executive Report
Return
to the USDOJ/OIG Home Page
Superfund Activities in the
Environment and Natural Resources DivisionFor Fiscal Year 1997
Report No. 00-08March 2000Office of the Inspector General
EXECUTIVE SUMMARY
On December 11, 1980, the Comprehensive Environmental Response, Compensation and Liability Act of 1980 (known as CERCLA or Superfund) was signed into law.  The CERCLA provides for liability, compensation, cleanup, and emergency response for hazardous substances released into the environment and uncontrolled and abandoned hazardous waste sites.  The implementing procedures for this legislation provide that the Attorney General is responsible for the conduct and control of all litigation arising under Superfund, to be reimbursed through interagency agreements with the Environmental Protection Agency (EPA).  These agreements authorized the Environment and Natural Resources Division (ENRD) to be reimbursed for direct and indirect costs incurred in performing litigation, and required ENRD to institute a system of accounting for processing this accounting data.  In our judgment, the Superfund case costs, as accumulated by ENRD, present fairly in all material respects the expenses incurred by ENRD in litigating Superfund cases.  Our audit disclosed the following.
In general, adequate internal controls existed to ensure the fair accumulation of costs incurred for Superfund cases.
Costs incurred and charged to Superfund cases were generally allocable.
The ENRD automated the time data entry system in March 1998.  The automated data entry system was not in place during the period covered by audit.  Consequently, we deferred evaluating the adequacy of the system controls to subsequent Superfund activities audits.